                                                     IG-00-022


QUALITY
                       ARTHUR ANDERSEN LLP AUDIT OF THE NASA
CONTROL                      FINANCIAL STATEMENTS FOR
REVIEW                  FISCAL YEAR ENDED SEPTEMBER 30, 1999
REPORT                              March 29, 2000




                       OFFICE OF INSPECTOR GENERAL
National Aeronautics
and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

      Assistant Inspector General for Auditing
      Code W
      NASA Headquarters
      Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The
identity of each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html




Acronyms

AICPA           American Institute of Certified Public Accountants
FY              Fiscal Year
OMB             Office of Management and Budget
Office of Inspector General                                              March 29, 2000


Mr. Gray Smith
Partner
Arthur Andersen LLP
8000 Towers Crescent Drive
Vienna, VA 22182-2725

Re: Final Report on Quality Control Review of Arthur Andersen LLP Audit of the National
    Aeronautics and Space Administration Financial Statements for Fiscal Year Ended
    September 30, 1999
    Assignment Number A9906000
    Report Number IG-00-022


Dear Mr. Smith:

We are issuing the subject final report pursuant to our responsibilities under the Chief Financial
Officers Act of 1990, as amended; Inspector General Act of 1978, as amended; and the Office
of Management and Budget Bulletin 98-08, "Audit Requirements for Federal Financial
Statements," August 24, 1998, as amended. Please refer to the Results in Brief section for the
overall quality control review results.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Ms. Van
Tran, Auditor-in-Charge, at (202) 358-0466. We appreciate the courtesies extended to the
audit staff. The final report distribution is in Appendix D.

Sincerely,

[Original signed by]

Russell A. Rau

Enclosure
                                              2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
                       3

bcc:
AIGA, IG Chrons
GRC/501-9/C. Sipsock
B/L. Lauria
W/V. Tran
                             NASA Office of Inspector General
IG-00-022                                                                                March 29, 2000
 A9906000

            Arthur Andersen LLP Audit of the National Aeronautics and
                  Space Administration Financial Statements for
                     Fiscal Year Ended September 30, 1999

Introduction

The NASA Office of Inspector General performed a quality control review of the Arthur Andersen LLP
(Arthur Andersen) audit of the NASA fiscal year (FY) 1999 Financial Statements. Our quality control
review and reporting on the results thereof are required by the Office of Management and Budget
(OMB) Bulletin 98-08, as amended, “Audit Requirements for Federal Financial Statements,” August
24, 1998. The review objective was to determine whether Arthur Andersen conducted its audit in
accordance with government auditing standards and the provisions of OMB Bulletin 98-08. Details on
our objective, scope, and methodology are in Appendix A.

Results in Brief

Arthur Andersen conducted the audit in accordance with government auditing standards and the
provisions of OMB Bulletin 98-08. Specifically, Arthur Andersen properly planned, executed, reported
the results of its audit and issued in a timely manner the audit opinion on the financial statements and
reports on internal control, compliance with laws and regulations, and application of agreed-upon
procedures. A summary of Arthur Andersen’s audit results is in Appendix B.

Background

The Chief Financial Officers Act of 1990 requires NASA to prepare financial statements and requires
the Office of Inspector General to either audit or provide for an independent external auditor to audit the
statements. Starting with FY 1996, we contracted with Arthur Andersen, an independent certified
public accounting firm, to audit NASA’s financial statements. Our responsibilities for audits performed
by non-Federal auditors, including independent external auditors of financial statements, are identified in
the Inspector General Act of 1978, as amended; the Chief Financial Officers Act of 1990, as amended;
and OMB Bulletin 98-08, as amended. Generally, our responsibility is to ensure that the audit conforms
to government auditing standards and applicable statutory and regulatory requirements. Further, OMB
Bulletin 98-08, paragraph 10, requires the Inspector General to:

        •   ensure that audits are performed and that audit reports are completed in a timely manner
            and in accordance with the OMB Bulletin requirements,
        •   provide technical advice and a liaison to Agency officials and independent external auditors,
         •   perform quality control reviews and provide the results to interested organizations, and
         •   monitor and report on management's progress in resolving audit findings identified by
             independent external auditors.

Report of Independent Public Accountants on Financial Statements

Arthur Andersen is required to obtain reasonable assurance about whether the financial statements are
free of material misstatement. NASA’s financial statements include a:

         •   Statement of Financial Position
         •   Statement of Net Cost
         •   Statement of Changes in Net Position
         •   Statement of Budgetary Resources
         •   Statement of Financing

We reviewed the audit program and the testing of evidence to determine whether testing was sufficient,
based on an assessment of control risk, to warrant the conclusion reached and whether the working
papers supported the conclusion.

Report of Independent Public Accountants on Internal Control

Arthur Andersen is required to obtain an understanding of the components1 of internal controls sufficient
to plan the audit and to assess control risk for the assertions 2 embodied in the financial statements.
Arthur Andersen is also required to obtain an understanding of the components of internal control
relating to the existence and completeness assertions relevant to the performance measures. We
reviewed the audit programs for the appropriate procedures, the working paper documentation
including the control risk assessment,3 and the controls testing performed. We also reviewed the
working papers related to electronic data processing and performance measures for adequate
documentation. Finally, we evaluated the adequacy of the auditor’s effort in following up on findings
and recommendations in the FY 1998 Management Letter.4 The




1
  The five components of internal control are control environment, risk assessment, control activities, information and
communication, and monitoring.
2
  Assertions are implied or expressed representations by management about the financial statements. The five
assertions are existence or occurrence, completeness, rights and obligations, valuation or allocation, and
presentation and disclosure.
3
  According to American Institute of Certified Public Accountants (AICPA) Codification of Statements on Auditing
Standards, Section 319, “Consideration of Internal Control in a Financial Statement,” auditors are required to
document the basis for concluding that control risk is below the maximum level.
4
  A management letter describes conditions that the auditors do not include in the audit report but consider
necessary to communicate to management.

                                                          2
status of management’s progress in resolving last year’s findings is in Appendix B. As required by
government auditing standards, section 4.7, Arthur Andersen will follow up on all findings and
recommendations in the FY 1999 Management Letter.

Report of Independent Public Accountants on Compliance with Laws and
Regulations

Arthur Andersen is required to determine whether NASA has complied with laws and regulations that
could have a direct and material effect in determining the financial statement amounts. Arthur Andersen
is also required to assess whether NASA’s financial management systems substantially comply with the
Federal Financial Management Improvement Act of 1996. We reviewed the audit programs for the
appropriate procedures, the working paper documentation including the fraud risk assessment,5 and the
compliance testing performed.

Report of Independent Public Accountants on the Application of Agreed-
Upon Procedures

Arthur Andersen is required to perform agreed-upon procedures6 related to the retirement, health, and
life insurance withholdings/contributions and employee head count data. Arthur Andersen performed
the procedures on behalf of the Office of Personnel Management. The auditors must apply the
procedures for each Agency Payroll Office that services 30,000 or more employees per year. We
reviewed the working papers to determine whether the procedures were completed as specified in draft
OMB Bulletin 99-xx,7 Appendix I-1, and whether associated findings, if any, were supported.

As part of our oversight responsibilities, we also performed the following procedures:

         •    Transmitted the NASA Interim and Updated Legal Representation Letters to the General
              Accounting Office, OMB, and Department of the Treasury (Treasury) on December 16,
              1999, and March 8, 2000.

         •    Completed the Federal Agencies’ Centralized Trial-Balance System data verification and
              provided results to the General Accounting Office, OMB, and Treasury on


5
  AICPA Codification of Statements on Auditing Standards, Section 316, “Fraud in a Financial Statement Audit,”
states that auditors are required to specifically assess the risk of material misstatement of the financial statements due
to fraud and to document in the working papers evidence of their assessment.
6
  The engagement to apply agreed-upon procedures is one in which the users of the report (for example, the Office of
Personnel Management) specify the procedures to be performed by the auditor, and the users assume responsibility
for the sufficiency of such procedures.
7
  Draft OMB Bulletin 99-xx, “Audits of Agency Financial Statements,” dated July 22, 1999, contains proposed
revisions to OMB Bulletin 98-08. Certain revisions are effective for the FY 1999 audit while others are effective for FY
2000 and beyond. The draft Bulletin, however, has not yet been finalized as of the dates of Arthur Andersen’s
reports or this quality control review report.

                                                            3
             March 3, 2000. The verification was to ensure agreement between amounts reported in the
             Agency’s financial statements and those reported to the Treasury. We found no differences
             in amounts.

        •    Reviewed the Agency’s draft FY 1999 Accountability Report8 and provided comments to
             NASA on January 11 and February 17, 2000. Our comments related to consistency in
             reporting and compliance with mandated requirements.




8
  The annual Accountability Report links together statutorily required reports into a single document. Examples
include reports required by the Chief Financial Officers Act, the Government Performance and Results Act, the
Federal Managers’ Financial Integrity Act, the Prompt Payment Act, and the Inspector General Act Amendments.




                                                        4
                    Appendix A. Objective, Scope, and Methodology

Objective

The review objective was to determine whether Arthur Andersen conducted its audit in accordance with
government auditing standards and the provisions of OMB Bulletin 98-08.

Scope and Methodology

In performing the quality control review, we used an internal work program that incorporates the
Federal financial management and audit requirements as well as government auditing standards. The
government auditing standards also incorporate, by reference, the AICPA standards of field work and
reporting. Based on those requirements, we developed and organized the work program according to
the general, field work, and reporting audit standards. The work program also included steps covering
our oversight requirements.

To satisfy the review objective and to fulfill our oversight responsibilities, we:

        •   reviewed Arthur Andersen’s approach and planning of the audit,
        •   monitored the progress of the audit at key points,
        •   examined its working papers and audit reports, and
        •   performed other procedures as necessary.

We worked closely with Arthur Andersen and Agency officials to ensure the audit was done in a timely
manner and according to applicable standards. Our involvement extended from the initial audit planning
to execution and completion. We held periodic meetings to discuss status, reviewed Arthur Andersen’s
working papers as the audit progressed, and coordinated responses to mandated requirements.

We performed our quality control review from June 1999 through March 2000.




                                                      5
              Appendix B. Summary of Arthur Andersen’s Audit Results

Report of Independent Public Accountants on Financial Statements

Arthur Andersen rendered an unqualified opinion on NASA’s Statement of Financial Position as of
September 30, 1999. Arthur Andersen also gave the Statements of Net Cost, Changes in Net Position,
Budgetary Resources, and Financing for the year ended September 30, 1999, an unqualified opinion.

Report of Independent Public Accountants on Internal Control

Arthur Andersen tested NASA’s controls over financial reporting and found no reportable conditions or
material weaknesses.9 However, Arthur Andersen noted matters related to (1) financial management
and accounting matters, (2) financial management systems, and (3) property management. These
matters are described in the FY 1999 Management Letter (see footnote 4) and are summarized below.

Report of Independent Public Accountants on Compliance with Laws and Regulations

Arthur Andersen tested NASA compliance with certain laws and regulations that could have a direct
and material effect in determining the financial statement amounts. The tests disclosed no reportable
noncompliance. Arthur Andersen also concluded that NASA’s financial management systems
substantially comply with the Federal Financial Management Improvement Act of 1996.

The full text of the above three reports, dated February 2, 2000, are included the Agency’s FY 1999
Accountability Report which can be viewed at http://www.nasa.gov.

Report of Independent Public Accountants on the Application of Agreed-Upon Procedures

Arthur Andersen performed the procedures as specified in Appendix I-1 of OMB Bulletin 99-xx (see
footnote 7) and found differences or variances in certain procedures. Appendix I-1 listed seven
detailed procedures relating to the Report of Withholdings and Contributions for Health, Benefits, Life
Insurance, and Retirement and to the Supplemental Semiannual Headcount Report. The procedures
generally entailed footing,10 tracing to source documents, recalculating amounts, and reconciling reports.
Arthur Andersen issued its Agreed-Upon Procedures report to the Inspector General, Chief Financial
Officer, and the Associate Director for Retirement and Insurance of the Office of Personnel
Management on December 15, 1999.




9
   A material weakness is a reportable condition in which the design or operation of one or more of the internal control
structure elements does not reduce to a relatively low level the risk that errors or irregularities in amounts that would
be material in relation to the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions.
10
   Footing is the sum of a column or row of figures.

                                                           6
                                                                                      Appendix B

FY 1999 Management Letter

Arthur Andersen made nine observations related to three areas: (1) Financial Management and
Accounting Matters, (2) Financial Management Systems, and (3) Property Management. Overall, the
recommendations for areas one and three addressed the need to strengthen the financial reporting
process. For the Financial Management Systems area, the recommendations addressed the need to
maintain complete and accurate documentation of security policies and procedures and to improve
security-related practices and disaster recovery capabilities. In following up on the FY 1998
Management Letter recommendations, Arthur Andersen found that further activity was required on 12
of the 25 recommendations (see Appendix C).




                                                7
   Appendix C. Status of Prior Year Management Letter Recommendations

                                                     Findings Not Repeated in      Findings Repeated in 1999
       Fiscal Year 1998 Recommendations             1999 Management Letter            Management Letter
                                                    Implemented         In         Partially          Not
                                                                    Process*     Implemented     Implemented
1. Continue to Improve Logical Access
    Controls Over Financial Management                   --             --            X                --
    Systems
2. Strengthen Financial Reporting Process to
    Effectively Communicate and Monitor New              --             --            --               --
    and Revised Policies
    a. Proper accounting for prior-period                --             --            X                --
        adjustments
    b. Recording of transactions in the proper           X              --            --               --
        period
    c. Inclusion of contractor fees in the
        recorded value of contractor-held                X              --            --               --
        property
    d. Reclassification of expired grant                 X              --            --               --
        advances to accounts receivable
    e. Periodic analysis of significant account          X              --            --               --
        balance fluctuations
3. Strengthen the Consolidation Process and              --             X             --               --
    Preparation of Financial Statements
4. Reconcile the General Ledger to the NASA
    Equipment Management System on a                     X              --            --               --
    Timely Basis
5. Reconcile the Real Property Accountability
    Officer's Summary Report to the General              X              --            --               --
    Ledger on a Timely Basis
6. Maintain Complete and Accurate
    Documentation of Financial Management                --             --            X                --
    System Security Policies and Procedures
7. Enhance Processes to Manage Financial
    Management System General Security                   --             --            X                --
    Controls
8. Strengthen Financial Management System                --             --            X                --
    Security-Related Practices
9. Strengthen Financial Management System                --             --            --               X
    Disaster Recovery Capabilities
10. Complete Year 2000 Remediation Initiatives           X              --            --               --

  *These recommendations will be resolved upon the implementation of NASA’s Integrated Financial Management
  Program.


                                                        8
                                                                                               Appendix C

                                                     Findings Not Repeated in     Findings Repeated in 1999
       Fiscal Year 1998 Recommendations             1999 Management Letter           Management Letter
                                                    Implemented         In        Partially          Not
                                                                    Process*    Implemented     Implemented
11. Improve Procedures Relating to
     Accounting for Property, Plant, and                 --            --           --              --
     Equipment
    a. Original acquisition date information for
       equipment transferred between                     X             --           --              --
       contractors and NASA Centers is not
       always retained.
    b. Depreciation expense is recorded in year
       of acquisition and year of disposal using
       mid-year convention. No procedure                 --            --           X               --
       currently exists for accurately performing
       this calculation.
    c. Budgetary cost data, rather than actual
       cost data, were used to support historical        --            X            --              --
       costs assigned to Assets in Space.
    d. Useful lives for NASA Shuttle orbiters
       are estimated based on anecdotal                  X             --           --              --
       information.
    e. A formal policy for assigning specific
       useful lives to Assets in Space on a unit-        X             --           --              --
       by-unit basis does not exist.
    f. Write-offs of idle, inactive property were
       not performed consistently at each                X             --           --              --
       Center.
    g. NASA Centers do not consistently apply
       NASA's policy for tracking and reporting          --            --           --              X
       deferred maintenance.
12. Improve Controls Over Receipt of                     --            --           --              X
    Equipment
13. Review of Government Property Control
    System Analyses for Possible Financial               --            --           X               --
    Statement Impact
14. Properly Account for Work-in-Progress and            --            --           --              --
    Completed Property
    a. Monitor uniform implementation of
        NASA policy for transferring Work-in-            X             --           --              --
        Progress to Completed Property.
    b. Ensure complete and proper recording
        of all Center projects in the Work-in-           X             --           --              --
        Progress account.


                                                       9
*These recommendations will be resolved upon the implementation of NASA’s Integrated Financial Management
Program.




                                                     10
                             Appendix D. Report Distribution


Independent Audit Firm

Arthur Andersen LLP
8000 Towers Crescent Drive
Vienna, VA 22182-2725

National Aeronautics and Space Administration (NASA) Headquarters

AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/ Director, Financial Management Division
G/General Counsel
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division




                                              11
                      NASA Assistant Inspector General for Auditing
                                     Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of our
reports. We wish to make our reports responsive to our customers’ interests, consistent with our
statutory responsibility. Could you help us by completing our reader survey? For your convenience,
the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector General for
Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title:       Quality Control Review of Arthur Andersen Audit of the NASA FY 1999 Financial
                    Statement

Report Number:                                          Report Date: ___________________

              Circle the appropriate rating for the following statements.
                                                      Strongly                              Strongl
                                                       Agree     Agree   Neutra   Disagre   y         N/A
                                                                           l         e      Disagre
                                                                                               e
1.   The report was clear, readable, and logically       5         4       3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3         2         1      N/A
3.   We effectively communicated the audit               5         4       3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

         Excellent                           Fair
         Very Good                           Poor
         Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______

Name: ____________________________

Telephone: _______________________
______________________

Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Chester A. Sipsock, Program Director, Environmental and Financial Management Audits

Van Tran, Auditor-in-Charge

Nancy C. Cipolla, Report Process Manager

Annette Huffman, Program Assistant
